U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT

  OPERATION AND MAINTENANCE OF
 GOVERNMENT FURNISHED QUARTERS,
   U.S. FISH AND WILDLIFE SERVICE

             REPORT NO. 96-I-270
               JANUARY 1996
                                                                                       i




TO:

FROM:


SUBJECT SUMMARY:            Final Audit Report for Your Information - “Operation
                            and Maintenance of Government Furnished Quarters,
                            U.S. Fish and Wildlife Service” (No. 96-I-270)

Attached for your information is a copy of the subject final audit report.

The U.S. Fish and Wildlife Service had more Government furnished quarters than
it needed to house employees essential to the effective operation of its programs.
Specifically, 98 (25 percent) of the 387 quarters managed by the three regions we
reviewed were classified by the regions as vacant. However, the Service had not
established procedures to determine under what conditions housing units should be
kept and maintained. We also found that the Service needed to improve controls
over accounting for and using quarters account funds and to ensure that rental rates
for Government furnished quarters were properly established. The Service agreed
with all eight of our recommendations to correct these conditions.

If you have any questions concerning this matter, please contact me at (202) 208-
5745.



Attachment
To:

From:


Subject:
           Furnished Quarters, U.S. Fish and Wildlife Service (No. 96-1-270)


                              INTRODUCTION
This report presents the results of our audit of the U.S. Fish and Wildlife Service’s
operation and maintenance of Government furnished quarters. The objective of our
review was to determine whether the Service was operating and maintaining quarters
in accordance with Federal, Department of the Interior, and Service requirements.
Specifically, we reviewed: (1) the occupancy and use of Government furnished
quarters; (2) the expenditure of funds from the quarters account and (3) the process
used to establish rental rates.

BACKGROUND

The U.S. Fish and Wildlife Service maintains Government furnished quarters at
173 wildlife refuges, 66 fish hatcheries, 3 Job Corps Centers, and 9 other locations.
These quarters are rented to permanent and seasonal employees at facilities where
it has been determined that it is essential to have employees living at the location to
provide services or protection or where alternative housing is unavailable.

Revenues from the rental of Government furnished quarters are deposited into a
special fund to be used only to operate, maintain, repair, or alter these quarters and
to pay for overhead directly associated with the quarters program. Quarters rental
rates are based on comparability with private sector rates in accordance with Office
of Management and Budget Circular A-45 (Revised), “Rental and Construction of
Government Quarters.” Base rental rates are established by the Bureau of
Reclamation for use by all bureaus in the Department. The Service may adjust the
base rates for such items as the age, size, and condition of the house or for
inadequate amenities such as unpaved streets or deficient electric service. From
October 1992 through March 1994, the Service deposited about $2.6 million into its
quarters account and incurred obligations totaling about $2.0 million for maintenance
and repairs.

SCOPE OF AUDIT

Our audit was made, as applicable, in accordance with the “Government Auditing
Standards, ''issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances. We reviewed quarters transactions that occurred
from October 1992 through March 1994. Our audit included visits or contacts with
3 regional offices, 14 hatcheries, 32 refuges, 1 research facility, and 1 Job Corps
Center (see Appendix 2).

As part of our review, we evaluated the internal controls related to the operation of
Government furnished quarters within the Service. Our evaluation disclosed
weaknesses regarding the use and occupancy of the quarters, the expenditure of
funds from the quarters account, and rent computation. These weaknesses are
discussed in the Results of Audit section of this report. If implemented, the
recommendations should strengthen the internal controls in these areas.

We also reviewed the Secretary’s Annual Statement and Report to the President and
the Congress, required by the Federal Managers’ Financial Integrity Act of 1982, for
fiscal year 1993 to determine whether any reported weaknesses were within the
objective and scope of our audit. We determined that none of the Service’s reported
weaknesses were within the objective and scope of our audit.

PRIOR AUDIT COVERAGE

Neither the General Accounting Office nor the Office of Inspector General has
audited the Service’s Government furnished quarters program within the past 5 years.

                            RESULTS OF AUDIT
The U.S. Fish and Wildlife Service has more Government furnished quarters than
it needs to house employees essential to the effective operation of its programs.
Specifically, 98 (25 percent) of the 387 quarters managed by the three regions we
reviewed were classified by the regions as vacant. However, the Service had not
established procedures to determine under what conditions a facility should keep and
maintain Government furnished quarters. As a result, the Service spent $33,000
during fiscal year 1993 to maintain quarters that were vacant and may have to spend
an estimated $375,000 for long-term maintenance; permitted research students to
occupy quarters without formal leases delineating their responsibilities and liabilities;


                                            2
and permitted quarters to be rented to non-Department of the Interior employees
without required approval or interagency agreements. We also found that the
Service needs to improve controls over accounting for and using quarters account
funds and ensure that rental rates for Government furnished quarters are properly
established.

Vacant Quarters
Service records indicated that 38 of 186 units in Region 1 (Portland, Oregon), 33 of
91 units in Region 4 (Atlanta, Georgia), and 27 of 110 units in Region 5 (Hadley,
Massachusetts) were vacant and many had been so for a considerable period of time.
For example, one of the three quarters at Walhalla National Fish Hatchery in South
Carolina has not been occupied since July 1990; two of the three quarters at Norfolk
National Fish Hatchery in Arkansas have been vacant for 4 1/2 and 1 1/2 years,
respectively; and one of the two quarters at Orangeburg National Fish Hatchery in
South Carolina has been vacant for about 2 years.

The Service Facilities Manual (Part 371) states, “Generally, specific quarters are
assigned to the occupant of a required position.” To meet this criterion of being in
a “required position,” the employee must be engaged in an activity related to the
protection of life and property and subject to frequent callback or emergency duties.
However, regional facility managers said that it is unlikely that the vacant units will
be occupied by Service employees because private housing is readily available and
reductions in the facilities’ workforce limit the number of prospective tenants.

Considering the number of vacant units Servicewide, particularly at national fish
hatcheries (58 of 231) and at national wildlife refuges (123 of 517), we believe that
the Service should evaluate the need for Government furnished quarters at each
location. Those quarters that are no longer needed and that cannot be converted to
other uses should be declared excess and disposed of. Housing units that can be
moved (particularly trailers) could be sold or scrapped, and those units for which
repair is not feasible, that are unsightly, or that are safety hazards to the staff or the
visiting public could be demolished.

Facility managers spent $33,000 during fiscal year 1993 for maintenance on vacant
units and estimated that long-term maintenance needs, while not always identifiable
to specific vacant or occupied units, would exceed $375,000 for facilities with vacant
housing units.

Non-Department of the Interior Tenants
The Service permitted non-Department of the Interior personnel to occupy excess
housing without formal leases delineating their responsibilities and liabilities. Several
facility managers established a policy of allowing college students conducting research

                                            3
at a facility to occupy vacant quarters at no charge. Facility managers stated that
they supported this arrangement because the Service received the benefits of the
students’ research. However, there were no formal rental agreements with the
students and/or the universities they represented. Furthermore, the students were
not subject to the general terms and conditions of renting Government furnished
quarters that applied to Department of the Interior tenants, which identified both
the tenants’ and the Government’s responsibilities and liabilities.

In addition to the student rentals, managers at five of the facilities included in our
review also rented Government quarters to non-Department of the Interior
government employees. For example, the housing data base for Region 4 indicated
that all five quarters at Greers Ferry National Fish Hatchery in Arkansas were
vacant. However, we found that three units were rented to U.S. Army Corps of
Engineers employees and a fourth unit was rented to an Arkansas Fish and Game
employee. The Service Facility Manual (Chapter 7) requires approval to be obtained
from the Assistant Secretary for Fish and Wildlife and Parks before vacant houses
are rented to non-Department of the Interior employees and states that the rental
charges should be based on the fair market rental rate. The facility manager did not
obtain approval to rent to non-Department of the Interior tenants, and the rental
rates were based on the same factors and deductions that would be appropriate for
Department of the Interior employees, not on the fair market rental rates required
by the Service Manual.

Quarters Account Expenditures

The Service did not ensure that funds from the quarters account were used for their
intended purposes. The Interior and Related Agencies Appropriations Act of 1985
(Public Law 98-473) requires that quarters rental receipts be deposited into a special
fund to remain available until expended by the facility where they are collected. The
Departmental Quarters Handbook (400 DM 114-52.802(a)) states that all quarters
income, regardless of source, should be expended only for operation of the quarters
program to maintain, repair, and alter the quarters units and to pay for overhead
directly associated with the quarters program. In addition, the Service Facility
Management Manual (Part 371, Chapter 1, Section 1.5C) requires that regional
directors review all expenditures from the regional quarters account to ensure that
the expenditures are authorized, appropriate, and supported. However, Service
regional directors did not establish specific controls or procedures to ensure that
these requirements were met. As a result, our review of $496,187 of the $811,427
charged to the quarters account from October 1992 through March 1994 for the
three regions reviewed identified $26,596 that was spent for nonquarters purposes,
$11,920 that was spent on housing units for volunteers and students, and $232,932
for expenditures that were not adequately supported.
      Expenditures. Although the regions received summary reporting of quarters
expenditures by facility from the Service’s Finance Office, none of the three regions
reviewed the expenditures to ensure that they were appropriate. As a result, the
regions were unaware of the questionable expenditures of funds totaling $26,596.
For example, managers at nine facilities and one region charged the quarters account
$21,81O for items and repairs that were not related to the housing units, such as auto
parts, travel costs, motor oil, a calculator, fish food, copy paper, repairs to a copy
machine, a car battery, a tort claim, and hatchery signs. These costs should have
been charged to the facilities’ operating accounts.

Facility managers used the quarters account to pay expenses totaling $11,920 for the
maintenance of and repairs to housing units that were not used to house Department
of the Interior employees. These units, which were used by volunteers and/or
work-study students, were: (1) houses normally occupied by Service employees; (2)
mobile homes or travel trailers obtained through the General Services
Administration; or (3) houses acquired as part of the creation of or changes to the
boundaries of a refuge or hatchery.

      Documentation. The Service did not maintain adequate documentation
supporting the expenditures charged to the quarters account. We found that the
documents supporting $232,932 (47 percent) of the $496,187 charged to the quarters
account for the 378 units reviewed did not identify the applicable unit. These
expenditures included $74,392 charged for labor that had no supporting
documentation. Charges for labor generally resulted from payroll adjustments that
transferred labor costs from an operating account to the quarters account.
According to station managers, the adjustment method was used because it was
easier than accounting for the time on a daily basis. Also, we found that bills and
invoices for services and materials often represented work performed on both
Government quarters and other buildings. Generally, there was no basis for the cost
allocation, or the quarters account was charged for the total cost. For example,
managers at the Patuxent Environmental Science Center charged $37,600 to the
quarters account for services received during fiscal year 1993. However, this amount
included charges for services to nonquarters buildings, such as the cost of providing
propane gas. In addition, we noted that expenditures such as “weekend lab sample
operators duties at HQ plant” and “repairs to Sickel Lab” were improperly charged
to the quarters account. Overall, it was not clear from the records whether the items
purchased or the work performed was related to Government furnished quarters or
to other facilities at the locations.

Rental Rates

The Service needs to ensure that rental rates for Government furnished quarters are
properly established. The Service Facility Management Manual (Chapter 1) states
that rental rates should be based upon prevailing rates (as established by the Bureau

                                          5
of Reclamation) for comparable private housing located in the general area and
should be subject to adjustments by the Service for condition and lack of amenities.
However, facility managers did not conduct inspections of the housing units to
determine whether increases or decreases to the base rental rates were warranted or
did not adequately document the bases for deductions to the base rental rates.

The Service Facility Management Manual (Part 371, Chapter 2) requires that facility
managers conduct annual maintenance inspections of each housing unit and submit
the documented results to the regional quarters officer for adjustments to the rental
rates as appropriate. However, we found that inspections were not conducted, and
as a result, additions to the units, such as garages, were not reflected in the rental
rates. In addition, we found that the Service upgraded the overall condition of
several units we reviewed but continued to classify the condition of these units as
fair. Thus, we believe that the rent reductions may not have been warranted.

The Service Facility Management Manual (Part 371, Chapter 5) requires
documentation supporting the lack of amenities to be “sufficiently detailed” to
establish the basis for the adjustment.          Part 371 further states that this
documentation should be collected and recorded for both Government quarters and
private housing in the locality and should be verified annually to ensure that the
same condition continues to exist. However, we found that the documentation
submitted by the facility managers to support the deductions generally consisted of
letters to the regional quarters officer which often contained the same boilerplate
justifications for the various types of deductions. These letters also did not indicate,
or reference any documentation to suggest, that the facility managers had compared
the services provided for the Government quarters with the services provided by the
communities surveyed.

Recommendations

We recommend that the Director, U.S. Fish and Wildlife Service:

      1. Conduct a review of existing Government furnished quarters to identify
those units no longer needed to house Department of the Interior employees.
Alternative uses should be developed for those units no longer needed, or the units
should be disposed of.

      2. Require that facility managers enter into formal lease agreements with
non-Department of the Interior tenants which identify the responsibilities and
liabilities of both the Government and the tenants who use the Government
furnished quarters.

     3. Require that facility managers identify all rentals of Government furnished
quarters to non-Department of the Interior personnel and ensure that such rentals

                                           6
meet the requirements established in Chapter 7 of the Service’s Facility Management
Manual.

     4. Require that regional officials conduct periodic (at least quarterly) reviews
of the quarters account to ensure that expenditures from that account are
appropriate.

     5. Prohibit the use of quarters account funds for facilities and/or houses that
are no longer needed, as established by the Service’s review of existing facilities.

     6. Require that supporting documentation for expenditures charged to the
quarters account identifies the unit on which the work was performed. In addition,
supporting documentation for all labor charges should indicate the work
accomplished on the unit.

     7. Require that facility managers conduct annual maintenance inspections of
Government furnished quarters and document the results. The results of the
inspections should be reported to the regional quarters officers, who should adjust
the tenant rental rates as appropriate.

     8. Require that facility managers conduct annual surveys to support reductions
to prevailing rental rates and document the results.

U.S. Fish and Wildlife Service Response

The October 31, 1995, response (Appendix 3 ) from the Deputy Director, U.S. Fish
and Wildlife Service, concurred with all eight recommendations.

      Recommendation 1. The Service stated that its quarters data base has been
updated and the vacant quarters have been identified. The Service also stated that
field stations will be required to state in writing, by March 29, 1996, their plans to
utilize, convert, or remove from the quarters rolls any units that are vacant.

      Recommendations 2 and 3. The Service stated that Part 371, Section 1.5.F, of
the U.S. Fish and Wildlife Service Manual will be made “more explicit” by requiring
station managers to obtain a signed Form DI 1881, “Quarters Assignment
Agreement,” from all tenants, including volunteers and non-Service employees. The
Service also stated that the appropriate forms for non-Federal and other Federal
tenants (GSA Forms 1582 and 1583, respectively) will be referenced in the Manual’s
revision planned for June 28, 1996. In addition, the Service stated that the regional
offices will be “reminded” that the Departmental Quarters Handbook requires
approval by the Assistant Secretary for Fish and Wildlife and Parks and the General
Services Administration in order to lease to non-Federal tenants.


                                          7
     Recommendation 4. The Service stated that the Division of Finance will work
with the National Quarters Officer to retrieve the necessary expenditure reports from
the Federal Finance System and that the National Quarters Officer will coordinate
necessary corrections and/or reallocations of any questionable expenditures with the
regional offices.

      Recommendation 5. The Service stated that Section 320 of Public Law 98-473
restricts the expenditure of quarters receipts to quarters operations and maintenance.
The Service also stated that the revised Department Quarters Handbook itemizes the
authorized uses of quarters income.           In addition, the Service stated that
implementation of Recommendation 4 will allow for the timely identification of
quarters-related expenditures.

      Recommendation 6. The Service stated that one of the station managers’
responsibilities cited in the draft Manual revision is to “ensure that any major
quarters maintenance project ($1,000+ ) is documented on a maintenance work
order.” The Service also stated that a review of quarters expenditures will be
included in biennial station inspections conducted by the regional offices.

      Recommendation 7. The Service stated that maintenance inspection
requirements will be added to the Manual to ensure that the biennial station
inspection includes a review of quarters management and quarters maintenance
expenditures and that housing inventory changes resulting from maintenance work
will be sent to the regional quarters officer within 30 days of completion.

      Recommendation 8. The Service stated that the draft revision of the Manual
will require that station managers ensure that documentation for “lack of amenities,
loss of privacy, excess or inadequate size, excess heating and cooling costs and poor
condition deductions” is updated annually. In addition, the Service stated that the
documentation is to be signed and dated by the station manager and sent to the
regional quarters officer by November 30 of each year.

Office of Inspector General Comments

Based on the Service’s response, we consider all eight recommendations resolved but
not implemented. Accordingly, the recommendations will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

Since the report’s recommendations are considered resolved, no further response to
the Office of Inspector General is required (see Appendix 4).
The legislation, as amended, creating the Office of the Inspector General requires
semiannual reporting to the Congress on all audit reports issued, the monetary
impact of audit findings (Appendix 1), actions taken to implement audit
recommendations, and identification of each significant recommendation on which
corrective action has not been taken.




cc: Director, U.S. Fish and Wildlife Service
                                             APPENDIX 1


           CLASSIFICATION OF MONETARY AMOUNTS


                                       Funds To Be Put
          Finding Area                  To Better Use

Nonquarters Expenditures                   $26,596




                            10
                                                              APPENDIX 2
                                                                Page 1 of 2


                   SITES VISITED OR CONTACTED


                                                       Location

Region 1

Regional Office                                 Portland, Oregon
  Carson National Fish Hatchey                  Carson, Washington
  Conboy Lake National Wildlife Refuge          Glenwood, Washington
  Eagle Creek National Fish Hatchery            Estacada, Oregon
  Little White Salmon-Willard National
     Fish Hatchery                              Cook, Washington
  Malheur National Wildlife Refuge              Princeton, Oregon
  McNary National Wildlife Refuge               Burbank, Washington
  Pierce National Wildlife Refuge               Stevenson, Washington
  Ridgefield National Wildlife Refuge           Ridgefield, Washington
  Salton Sea National Wildlife Refuge*          Calipatria, California
  Sheldon-Hart Mountain National
     Aquatic Refuge                             Lakeview, Oregon
  Spring Creek National Fish Hatchery           Underwood, Washington
  Toppenish National Wildlife Refuge            Toppenish, Washington
  Umatilla National Wildlife Refuge             Umatilla, Oregon
  Warm Springs National Fish Hatchery           Warm Springs, Oregon

Region 4

Regional Office                                 Atlanta, Georgia
  Blackboard Island National Wildlife Refuge    McIntosh, Georgia
  Carolina Sandhills National Wildlife Refuge   McBee, South Carolina
  Greers Ferry National Fish Hatchery           Heber Springs, Arkansas
  Harris Neck National Wildlife Refuge          Beaufort County, Georgia
  McKinney Lake National Fish Hatchery          Hoffman, North Carolina
  Norfolk National Fish Hatchery                Mountain Home, Arkansas
  Orangeburg National Fish Hatchery             Orangeburg, South Carolina
  Piedmont National Wildlife Refuge             Round Oak, Georgia
  Pinckney Island National Wildlife Refuge      Jasper County, Georgia


*Contacted only.


                                      11
                                                            APPENDIX 2
                                                              Page 2 of 2


               Site                                 Location

Region 4 (Cont.)

  Savannah National Wildlife Refuge          Savannah, Georgia
  Walhalla National Fish Hatchery            Walhalla, South Carolina
  Warm Springs National Fish Hatchery        Warm Springs, Georgia
  White River National Wildlife Refuge       Dewitt, Arkansas
  Yazoo National Wildlife Refuge             Hollandale, Mississippi

Region 5

Regional Office                              Hadley, Massachusetts
  Back Bay National Wildlife Refuge          Virginia Beach, Virginia
  Berkshire National Fish Hatchery           GreatBarrington, Massachusetts
  Chincoteague National Wildlife Refuge      Chincoteague, Virginia
  Edwin B. Forsythe National Wildlife
     Refuge                                  Oceanville, New Jersey
  Eastern Shore of Virginia National
     Wildlife Refuge                         Cape Charles, Virginia
  Great Dismal Swamp National Wildlife
     Refuge                                  Suffolk, Virginia
  Great Meadows National Wildlife Refuge     Sudbury, Massachusetts
  Great Swamp National Wildlife Refuge       Basking Ridge, New Jersey
  Harrison Lake National Fish Hatchery       Charles City, Virginia
  Iroquois Job Corps Center                  Medina, New York
  Iroquois National Wildlife Refuge          Alabama, New York
  Montezuma National Wildlife Refuge         Seneca Falls, New York
  North Attleboro National Fish Hatchery     North Attleboro, Massachusetts
  Patuxent Environmental Science Center      Laurel, Maryland
  Presquile National Wildlife Refuge         Hopewell, Virginia
  Seatuck National Wildlife Refuge           Shirley, New York
  Supawna Meadows National Wildlife Refuge   Salem County, New York
  Target Rock National Wildlife Refuge       Hunting, New York
  Tunison Laboratory of Fish Nutrition       Cortland, New York
  Wertheim National Wildlife Refuge          Shirley, New York




                                     12
                                                                                  APPENDIX 3
                                                                                  Page 1 of 5

                        United States Department of the Interior
                                    FISH AND WILDLIFE SERVICE
                                          Washington, D.C. 20240

IN REPLY REFER TO:


  FWS/CGS



  Memorandum

 To:                 Acting Assistant Inspector General for Audits



 Subject:            Response to Draft Office of Inspector General Audit Regarding operation and
                     Maintenance of Government Furnished Quarters, U.S. Fish and Wildliife Service,
                     E-I N-FWS-007-94

 Thank you for providing the Fish and Wildlife Service with the opportunity to review and
 comment cm the above referenced (draft audit report. We concur with each of the draft report’s
 eight recommendations, and have provided in the attachment a listing of planned actions,
 proposed completion dates, and the titles of rcsponsible officials.

 We appreciate the information and recommendations provided in the draft audit report and will
 make every effort to implement corrective actions in a timely and effective manner. If you have
 any questions, plcase contact Joel Greenstein, Chief, Division of Contracting and General
 Services, Washington Office, at (703) 358-1901.




 Attachment




                                                   13
                                                                               APPENDIX 3
                                                                               Page 2 of 5



                              U.S. Fish and Wildlife Service
                                   Washington, D.C.

Subject: Office of Inspector General Draft Audit Report Regarding Operation and Maintenance
of Government Furnished Quarters, U.S. Fish and Wildlife Service, E-IN-FWS-O07-94,
September 1995

The following comments are submitted in response to the recommendations contained in the
above referenced draft audit report in accordance with Part 360, Chapter 5 of the Departmental
Manual:

OIG Recommendation 1:          Conduct a review of existing Government furnished quarters to
identify those units no longer needed to house Department of the Interior employees. Alternative
uses should be developed for the units no longer needed, or the units should be disposed of.

FWS Response: Concur. In response to the May 1995 preliminary draft audit regarding the
above, the Service’s Regional Quarters Officers were asked to provide updates to the
Servicewide quarters data base regarding dates vacated and occupied. The updated U.S. Fish
and Wildlife Service quarters data base has been reviewed, and vacant quarters were identified.
The following additional actions are planned:

a. Memoranda will be sent to all Fish and Wildlife Service Regional Offices with printouts
listing their respective vacant quarters. Regional quarters officers (RQO) will be required to
complete any missing information. Field Stations will be required to state in writing (as
approved by their respective Regional Directors) their plans to utilize, convert, or remove from
the quarters rolls any units that are vacant.

Completion Date(s): March 29, 1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration, and
Regional Directors

b. Improved space in residences can often be adapted to alternative uses such as office or
warehouse space. As an initial step in the reutilization of vacant quarters, the locations of vacant
quarters have been compared to the locations of leased office space. Several locations have been
identified for which the improved space of long-term vacant quarters is roughly equal to or
greater than nearby leased space or a pending space request. The Regional Offices will be
requested to examine whether vacant quarters would be a suitable substitute for General Services
Administration-leased space.

Completion Date(s): March 29, 1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration, and
Regional Directors




                                             14
                                                                              APPENDIX 3
                                                                              Page 3 of 5




Recommendation 2: Require that facility managers enter into formal lease agreements with
non-Department of the Interior tenants which identify the responsibilities and liabilities of both
the Government and the tenants who use the Government-furnished quarters.

FWS Response:      Concur. Part 371, Section 1.5.F of the U.S. Fish and Wildlife Service
Manual (FWM), “Responsibilities,” will be made more explicit (in draft and final) by requiring
Station Managers to obtain a signed Form DI 1881, Quarters Assignment Agreement, from all .-
tenants, including volunteers and non-Service employees. The appropriate forms for other
Federal (GSA Form 1583) and non-Federal (GSA Form 1582) tenants will also be referenced
in the FWM revision.

Completion Date(s): June 28.1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration, and
Regional Directors

Recommendation 3: Require that facility managers identify all rentals of Government furnished
quarters to non-Department of the Interior personnel and ensure that such rentals meet the
requirements established in Chapter 7 of the Service’s Facility Management Manual.

FWS Response: Concur. See FWS Response to Recommendation 2 above. Reference is also
made to the Departmental Quarters Handbook (Section 5.3, Interim Use of Non-excess and
Excess Quarters by non-Federal Tenants, paragraph B. Approval), which requires approval by
the Assistant Secretary for Fish and Wildlife and Parks and the General Services Administration
in order to lease to non-Federal tenants. Regional Offices shall be reminded of these
requirements.
Completion Date(s): June 28.1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration. and
Regional Directors

Recommendation 4:        Require that Regional officials conduct periodic (at least quarterly)
reviews of the quarters account to ensure that expenditures from the account are appropriate.

FWS Response: Concur. The current Federal Finance System has a routine procedure for
producing reports and electronic files of quarters account expenditures. The Division of Finance
will work with the National Quarters Officer (at the Division of Contracting and General
Services, Washington Office) by assisting him in retrieving the necessary reports. Once the
National Quarters Officer has received and reviewed the monthly electronic report, he will
coordinate necessary corrections and/or reallocations of any questionable expenditures with the
Regional Offices.
                                                                             APPENDIX 3
                                                                             Page 4 of 5




Completion Date(s): June 28, 1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration. and
Regional Directors

Recommendation 5: Prohibit the use of quarters account funds for facilities and/or houses that
are no longer needed, as established by the Service’s review of existing facilities.

FWS Response: Concur. Section 320 of Public Law 98-473 (General Provisions of the Fiscal
Year 1985 Interior and Related Agencies Appropriations Act) already restricts the expenditure
of quarters receipts to quarters operations and maintenance. Revised Department Quarters
Handbook Chapters 17.3 and 7.2 A.(7) itemize the authorized uses of quarters income.
Implementation of Recommendation 4 above will allow for the timely identification of quarters-
related expenditures.

Completion Date(s): June 28.1996

Title of Responsible Official(s): Assistant Director - Policy, Budqet and Administration, and
Regional Directors

Recommendation 6: Require that supporting documentation for expenditures charged to the
quarters account identify the unit on which the work was performed. In addition, the supporting
documentation for all labor charges should indicate the work accomplished on the unit.

FWS Response: Concur. One of the Station Manager’s responsibilities cited in the draft FWM
revision at 371 FW 1.5 F.(5) is to “ensure that any major quarters maintenance project
($1,000+) is documented on a maintenance work order as found in the Maintenance
Management System (Form 3-21 13). This form includes a description of the project, quarters
number, dates started and completed, project cost, materials cost, contractor involvement and/or
staff hours expended. A review of quarters expenditures will be included in biennial station
inspections conducted by the Regional Office. ”

Completion Date(s): June 28.1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration. and
Regional Directors

Recommendation 7: Require that facility managers conduct annual maintenance inspections of
Government furnished quarters and document the results. The results of the inspections should
be reported to the RQO, who should adjust the tenant rental rates as appropriate.

FWS Response: Concur. The following requirements will be added to: (a) 371 FW 1.5,
Responsibilities C., section (7) under Regional Director, “Ensures that the biennial station

                                           3

                                               16
                                                                           APPENDIX   3
                                                                           Page 5 of 5




inspection includes a review of quarters management and quarters maintenance expenditures;”
and (b) 371 FW 1.5 F., section (4) under Station Manager, “... housing inventory changes
resulting from maintenance work is to be sent to the RQO within 30 days of completion. ”

Completion Date(s): June 28.1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration. and
Regional Directors

Recommendation 8:        Require that facility managers conduct annual surveys to support
reductions to prevailing rental rates and document the results.

FWS Response: Concur. The draft revision of the Fish and Wildlife Service Manual, Part 371
FW, section 1.5 F.(4), will require that Station Managers “Ensure that documentation for lack
of amenities, loss of privacy, excess or inadequate size, excess heating and cooling costs and
poor condition deductions is updated annually. ” The documentation is to be signed and dated
by the Station Manager and sent to the RQO by November 30 of each year.

Completion Date(s): November 30.1996

Title of Responsible Official(s): Assistant Director - Policy, Budget and Administration, and
Regional Directors
                                                          APPENDIX 4


       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference           Status               Action Required

1 through 8              Resolved; not   No further response to the Office
                         implemented.    of Inspector General is required.
                                         The recommendations will be
                                         referred to the Assistant
                                         Secretary for Policy,
                                         Management and Budget for
                                         tracking of implementation.
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                   Calling:


                     Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior
Office of Inspector General
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
